WAIVER
SUPREME COURT OF THE UNITED STATES
No.

20-1646

Steven K. Stanley

Commissioner of Correction

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
®

I am 'filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
•
I am not' presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:

16/23/21

(Type or print) Name Kathryn W. Bare

Nir

.Ms.

0 Mrs.

0 Miss

Firm

Appellate Bureau - Office of the Chief State's Attorney

Address

300 Corporate Place

City & State

Rocky Hill

Phone

(860) 258-5807

Zip CT
Email DCJ.00SA.Appellate@ct.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or c
Mr. Joseph Patten Brown
of Pat Brown
cc: 43awW.Office
Main Street
IAVon, Cr06001

